OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
AGRICULTURAL EXPORTS
AND RURAL INCOMES
PROJECT
AUDIT REPORT NO. 6-263-07-001-P
February 21, 2007




CAIRO, EGYPT
Office of Inspector General



February 21, 2007

MEMORANDUM

TO:                  USAID/Egypt Director, Kenneth C. Ellis

FROM:                Regional Inspector General/Cairo, David H. Pritchard /s/

SUBJECT:             Audit of USAID/Egypt’s Agricultural Exports and Rural Incomes Project
                     (Report No. 6-263-07-001-P)

This is our report on the subject audit. The report includes five recommendations to (1)
redesign a section of the project, (2) enforce the requirement that project’s grantees submit
progress reports that address expected results, (3) analyze the quarterly reports, (4) test
support for results reported by the grantees, and (5) correct the Performance Monitoring Plan.

In finalizing this report, we considered your comments to our draft report and have included
them as Appendix II. Based on these comments, we concur that management decisions have
been made on all five recommendations, and that final action on these recommendations is
pending. Please coordinate final action with USAID’s Audit, Performance and Compliance
Division.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/Cairo
Unit 64902, APO, AE 09839-4902
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 2

Audit Findings ................................................................................................................. 3

Has USAID/Egypt’s investment in the Agricultural Exports
and Rural Incomes Project increased the number of jobs
for project participants as planned? .................................................................................. 3

     USAID/Egypt Needed to Establish
     Better Targets and Methods for
     Measuring Project Progress........................................................................................ 3

     USAID/Egypt Needed to Improve
     Oversight of Grantee Reporting .................................................................................. 6

     USAID/Egypt Needed to Better Verify
     Reported Results ........................................................................................................ 8

     USAID/Egypt Needed to Correct Its
     Performance Monitoring Plan.................................................................................... 10

Has USAID/Egypt’s investment in the Agricultural Exports
and Rural Incomes Project increased the rural household
incomes of project participants as planned? ................................................................... 12

     Grantees Needed to Better Support
     Reported Results ...................................................................................................... 12

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 16

Appendix II – Management Comments ....................................................................... 19

Appendix III – Technical Appendix for Jobs Calculations ........................................ 24

Appendix IV – Technical Appendix for Income Calculations.................................... 29
SUMMARY OF RESULTS
The Agricultural Exports and Rural Incomes Project was a 4-year, $57.3 million USAID
project that began in the last quarter of 2003 as one of several activities within
USAID/Egypt’s strategic objective for strengthening the environment for trade and
investment. The project’s overall expected results were to increase on-farm and
agribusiness jobs and rural incomes. The project expended $17.0 million through
September 30, 2005. The objectives of the audit were to determine if the project has
increased jobs and rural household incomes of project participants as planned. (See
page 2.)

For the activities audited, the project has not increased jobs of its participants as
planned, and the grantees were unable to support the income results they reported. In
addition, USAID/Egypt needed to strengthen controls associated with monitoring and
reporting on the project. (See pages 3, 6, 8, 10, and 12.)

This report includes five recommendations to the USAID/Egypt Director to (1) redesign a
section of the project, (2) enforce the requirement that the project’s grantees submit
progress reports that address expected results, (3) analyze the quarterly reports, (4) test
support for results reported by grantees, and (5) correct the Performance Monitoring
Plan. (See pages 6, 8, 10, and 11.)

Appendix II contains management comments in their entirety. In its comments,
USAID/Egypt generally agreed with the findings and reported that management
decisions had been reached on all five audit recommendations. Among other things, for
example, the Mission agreed that the project was not designed to increase jobs, and the
Mission planned to drop the jobs indicators used for measuring project progress. We
concur that management decisions have been reached. (See pages 19-23.)




                                                                                         1
BACKGROUND
The Agricultural Exports and Rural Incomes Project was a 4-year, $57.3 million USAID
project that began in the last quarter of 2003 as one of several activities within
USAID/Egypt’s strategic objective for strengthening the environment for trade and
investment. A significant purpose of this project was to strengthen the competitiveness
of Egypt’s agriculture, and the project’s overall expected results were to increase
on-farm and agribusiness jobs and rural incomes. The project expended $17.0 million
through September 30, 2005, which represents its first 2 years.

USAID/Egypt awarded two contracts, one cooperative agreement, and two grants for
five project components designed to provide technical assistance, training and
commodities through: (1) grants to support infrastructure and equipment needs of small
farmers; (2) support to Egyptian agricultural trade associations; (3) support to
smallholders; (4) support for international linkages between Egyptian and American
scientists; and (5) technical assistance for the design of a legacy program to ensure the
sustainability of achievements attained under the project.

With respect to the component to support smallholders, which was the primary focus of
this audit due to this component being the only component that had specific linkages to
the expected project results of increasing on-farm and agribusiness jobs and rural
incomes, USAID/Egypt signed a grant agreement with ACDI/VOCA on October 1, 2003,
for $7.9 million to work with dairy and livestock farmers. The second grantee was
CARE, with which USAID signed a grant agreement on September 21, 2003, for $10.9
million to work with horticulture farmers.

AUDIT OBJECTIVES
We conducted this audit as part of the Office of Inspector General’s audit plan for fiscal
year 2006 to answer the following questions:

•   Has USAID/Egypt’s investment in the Agricultural Exports and Rural Incomes Project
    increased the number of jobs for project participants as planned?

•   Has USAID/Egypt’s investment in the Agricultural Exports and Rural Incomes Project
    increased the rural household incomes of project participants as planned?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                        2
AUDIT FINDINGS
Has USAID/Egypt’s investment in the Agricultural Exports and
Rural Incomes Project increased the number of jobs for project
participants as planned?
For the activities audited, USAID/Egypt’s investment in the Agriculture Export and Rural
Incomes Project has not increased the number of jobs as planned. Factors that
impaired progress included:

•    The grantees had not met the planned annual targets for increasing jobs.
•    The grantees had not adequately reported their progress in meeting the annual
     targets for increasing jobs.
•    The grantees could not provide support for all reported results.
•    USAID/Egypt’s Performance Monitoring Plan reported inaccurate information on the
     increases in the number of jobs.

As discussed in the following sections, USAID/Egypt needed to (1) establish better
targets and methods for measuring project progress, (2) improve oversight of grantee
reporting, (3) better verify reported results, and (4) correct its Performance Monitoring
Plan.

USAID/Egypt Needed to Establish
Better Targets and Methods for
Measuring Project Progress

    Summary: According to the grant agreements, ACDI/VOCA and CARE were to
    increase jobs by 5,787 and 12,667, respectively, over the first 2 years of the project.
    Neither grantee has met their annual planned targets. This occurred because of a
    problematic project design, a shift in the focus of the activities, and the grantees’ use
    of unreliable methodologies to measure increases in jobs. As a result, the project as
    related to increasing jobs has not been effective.

ACDI/VOCA – The grant agreement indicated that ACDI/VOCA would generate
2,390 new jobs in the first year and 3,397 in the second year, for a 2-year total of 5,787
new on-farm jobs.

ACDI/VOCA did not meet either of these targets. Although ACDI/VOCA did not report
on results for the first-year target, the Chief of Party said that ACDI/VOCA did not meet
it. ACDI/VOCA did produce a performance report dated September 2005, which
included results for the first 2 years of the project. This report said that ACDI/VOCA
increased jobs by 4,594, or 79 percent of the 2-year target. However, as discussed later
in this report, ACDI/VOCA used an unreliable methodology to calculate these increases,
resulting in an overstatement of accomplishments. For example, ACDI/VOCA’s
methodology included the calculation of amounts based on indirect farmers, whereas
USAID approved the project based on the intended results for direct beneficiaries. The

                                                                                                3
amounts attributed to indirect farmers represented approximately 84 percent of the
reported results.

Both a USAID/Egypt official and an ACDI/VOCA official stated that working with dairy
and livestock farmers would not increase jobs as previously believed.

CARE – The grant agreement contained annual targets of increasing jobs by 6,000 in
the first year and 6,667 in the second year, for a 2-year total of 12,667 new, on-farm
jobs.

CARE did not meet these targets. According to performance reports provided by CARE,
CARE increased jobs in the first 2 years by 6,412, or 50.6 percent of its target.
However, as discussed later in this report, CARE used an unreliable methodology to
calculate these increases, resulting in an overstatement of accomplishments.

CARE has submitted a request to USAID/Egypt to reduce its portion of the project’s
overall results from a 4-year total of 40,000 jobs to 13,333—one third of the original
target. CARE said that the 40,000 target was “completely unrealistic”.

ACDI/VOCA and CARE have not achieved the targets for increasing jobs because of (1) a
problematic project design, (2) a shift in the focus of the activities, and (3) the grantees’ use
of unreliable methodologies to measure increases in jobs.

Project Design — According to economists within USAID/Egypt, measuring a project’s
impact on job creation involves the use of extensive surveys and/or complicated
extrapolations using proxy indicators. As the approval documents went through
adaptations for the project agreement, Request for Proposals/Applications, and grant
stages, the creation of jobs was elevated to a primary indicator. This was particularly
problematic because job creation occurs later in a project’s life, sometimes years after a
project concludes. In hindsight, Mission officials concluded that jobs creation should not
have been elevated to an indicator. The Chiefs of Party for both grantees stated that the
annual targets were “overly ambitious.”

Shift in Focus — ACDI/VOCA and CARE shifted their focus. After USAID/Egypt signed
respective grant agreements with ACDI/VOCA and CARE, USAID/Egypt changed one
aspect of the overall project as a result of a visit from an Under Secretary for the
Department of State. The Mission substituted a grant activity for the original policy
activity. This grant activity was to supply small farmers’ associations with needed
equipment or facilities to improve the quality of products as well as to increase farming
efficiency. This change affected both grantees because USAID/Egypt expected the
grantees to facilitate the formation of these small farmers’ associations and then get the
associations ready to submit grant proposals. ACDI/VOCA and CARE stated that they
spent most of their effort in institution building to prepare the farmers to accept the
grants.

This additional work was not included in either grant agreement. USAID/Egypt amended
the grant agreement with ACDI/VOCA on June 28, 2005, by increasing the award
amount by approximately $380,000 to pay for additional work. However, USAID/Egypt
did not amend the scope of work to specify the additional work or change any of the
original jobs targets. USAID/Egypt did not amend CARE’s grant agreement.



                                                                                               4
Methodologies to Measure Increases in Jobs — ACDI/VOCA and CARE used
unreliable methodologies to calculate the increases in the number of jobs.

ACDI/VOCA based its results on a complex formula applied to data extracted from a
survey, but the methodology was not fully accurate and valid. (See Appendix III for
details.). Examples include the following:

•     ACDI/VOCA was unable to provide documentation to support an assumption that
      every increase of 10 animals would create three jobs for dairy farmers. Additionally,
      as previously stated, a USAID official and an ACDI/VOCA official both stated that
      ACDI/VOCA’s activities would not increase jobs (See Appendix III, page 24).

•     ACDI/VOCA was unable to support the attribution of its activities to the animals that
      were born. When calculating the increase in animals, ACDI/VOCA included the
      female animals that were born to the baseline animals and that matured during the
      year. However, these animals were born prior to the project’s commencement.
      Accordingly, ACDI/VOCA should not have added to the baseline those that were
      born and matured before the project started (See Appendix III, page 26).

•     ACDI/VOCA’s methodology included the calculation of amounts based on indirect
      farmers, whereas USAID approved the project based on the intended results for
      direct beneficiaries.   The amounts attributed to indirect farmers represented
      approximately 84 percent of the reported results. Indirect farmers refer to those
      farmers who did not participate directly in the activities, but learned about the new
      technology through other direct farmers. According to several project documents,
      including the Activity Approval Document, the Request for Applications, and the
      Performance Monitoring Plan, ACDI/VOCA should have measured the jobs impact
      on direct beneficiaries—not on indirect ones. However, the grant agreement
      included ambiguous language regarding the inclusion of indirect farmers’ results,
      causing confusion among USAID officials about what they should expect as results.
      According to one USAID official, USAID/Egypt should receive results for just the
      direct beneficiaries because it is very difficult to get an accurate and agreed-upon
      number for indirect results (See Appendix III, pages 24-25).

CARE’s methodology for calculating results was also not fully supported or accurate
(See Appendix III for details.). Examples include the following:

•     CARE did not have support for an assumption that one new on-farm job was created
      for every feddan 1 that farmers switched from lower-value field crops (such as wheat
      or berseem) to high-value horticulture (such as green beans or cantaloupes).
      According to CARE's Chief of Party, this formula came from a previous USAID
      project called Agriculture-Led Export Businesses. However, as explained in a report
      of that project that discussed the “Input-Output Model,” this formula was applicable to
      a new input—not a switch in inputs, which in this case is a switch in crops (See
      Appendix III, page 27).

•     When calculating the new jobs, CARE did not take into account the jobs that existed
      on the land prior to switching to high-value crops. CARE stated that its farmers grew
      2,972 feddans of high-value horticulture. Assuming one new job for every feddan of
1
    In Egypt, a feddan is a unit of land area equal to about 1.038 acres.


                                                                                           5
     high-value horticulture, CARE reported that it created 2,972 jobs. However, CARE
     did not take into account that the land previously grew a different crop that required
     labor (See Appendix III, pages 27-28).

•    When calculating the 2,972 feddans that produced high-value horticulture, CARE did
     not exclude the portion of these 2,972 feddans that was already producing
     high-value horticulture prior to CARE’s activities. For example, an independent
     survey that CARE commissioned during the project stated that approximately 25
     percent of farms in Upper Egypt already grew high-value horticulture (See
     Appendix III, page 27).

As a result of the problematic project design, the shift in the focus of the project’s activities,
and the use of unreliable methodologies to measure increases in jobs, the project as
related to increasing jobs has not met established targets. In discussing this issue with
USAID/Egypt officials, they mentioned that the project has provided many benefits that
were beyond the scope of our audit, and they emphasized the project’s importance to
Egypt. They agreed that the creation of jobs was not a good indicator.

To address the design issue and the change in focus for some project activities,
including the difficulty of trying to measure increases in jobs, we make the following
recommendation:

     Recommendation No. 1: We recommend that the USAID/Egypt Director
     redesign the jobs section of the Agricultural Exports and Rural Incomes Project to
     establish appropriate indicators and targets for measuring project progress.


USAID/Egypt Needed to Improve
Oversight of Grantee Reporting

    Summary: Both grant agreements required each grantee to submit quarterly
    reports to USAID/Egypt regarding the progress towards grantees’ goals. However,
    the grantees had not adequately met the reporting requirements due to insufficient
    USAID/Egypt oversight. As a result, USAID/Egypt was not able to determine if the
    project was effective.

Both grant agreements included a reporting requirement that stated that the grantee will
submit quarterly reports, due within 30 days after the reporting period, which “will
contain: a comparison of actual accomplishments with the goals, objectives, and
milestones established for the period; reasons why established goals were (or are not)
being met; and other pertinent information.” Also within their grant agreements, each of
the grantees had established annual goals that USAID/Egypt expected them to meet.

ACDI/VOCA and CARE did not meet this reporting requirement. Although ACDI/VOCA
submitted quarterly reports, the reports did not address results, including a comparison
of actual accomplishments to the annual targets for jobs.




                                                                                                6
CARE also submitted quarterly reports to USAID/Egypt, but the quarterly report for the
end of the first year did not report on whether or not CARE had met their targets for jobs.
The table included in the report stated "N/A" as the result for jobs and stated that CARE
was in the process of collecting information for year one. The first report that included
results relating to jobs was the April 2005 quarterly report for the first 18 months of the
project. CARE did not explain why it met or did not meet the target for the 18 months
and 2 years of the project.

CARE also changed its targets in the quarterly reports and reported against these
changed targets. As a result, CARE reported against targets that were significantly
lower than targets established in the agreed-to grant agreement, as shown in Table 1.

Table 1: CARE’s Reported Targets Versus Grant Agreement Targets for Jobs Created

                         1st Year    2nd Year      3rd Year     4th Year       Total
    Grant Agreement       6,000        6,667        12,666       14,667       40,000
    Quarterly Reports     1,300        2,600         3,900        5,533       13,333

CARE officials said that they misunderstood the Request for Applications, which stated
that one of the goals for the project was to increase jobs by 40,000. These officials
thought USAID/Egypt had expected each grantee to reach the target of 40,000.
However, according to CARE’s November 2005 formal request to modify targets, this
goal was “completely unrealistic.” CARE stated that it discussed this with USAID/Egypt
in late 2003 and that CARE and USAID/Egypt had agreed to change CARE’s target.

Although the USAID Cognizant Technical Officer stated that he approved this change
with the annual implementation plan, the annual implementation plan did not support any
change in targets. Also, the USAID Activity Manager was unaware of any discussions or
changes to the targets.

Consequently, the actual results that CARE reported in its quarterly reports looked better
against lower targets. On November 28, 2005, CARE submitted a formal request to
USAID/Egypt to change its targets because CARE considered them to be unrealistic.

USAID/Egypt was not fully analyzing the reports received from grantees to ensure that
the grantees met reporting requirements. USAID’s Automated Directives System
202.3.6, states that a major task of the Cognizant Technical Officer and Strategic
Objective Team is to monitor the quality of outputs produced by the grantees. These
outputs are critical to achieving results. Furthermore, Automated Directives System
303.3 states that the Cognizant Technical Officer is responsible for monitoring and
evaluating the grantee's performance during the award in order to facilitate the
attainment of project objectives. One method they can use is reviewing and analyzing
all performance reports and ensuring compliance with the terms and conditions of the
award.

As a result of insufficient analysis of the quarterly reports, officials within USAID/Egypt
thought that the project was close to being on target, but they were not fully aware that
the grantees were significantly under their annual targets for job creation.




                                                                                         7
To address the grantees’ noncompliance with reporting requirements and the need for
closer oversight of the reporting, we make the following recommendations:

   Recommendation No. 2: We recommend that the USAID/Egypt Director enforce
   the requirement that grantees under the Agricultural Exports and Rural Incomes
   Project submit progress reports that address each of their expected results in
   their grant agreements, including reasons for meeting or not meeting the
   expected results.

   Recommendation No. 3: We recommend that the USAID/Egypt Director require
   the appropriate Mission personnel to analyze the quarterly reports under the
   Agricultural Exports and Rural Incomes Project, including comparing the reported
   results to planned results specified in documentation such as the grant
   agreements.


USAID/Egypt Needed to
Better Verify Reported Results

  Summary:        Contrary to the Standards for Internal Control in the Federal
  Government, the grantees did not maintain readily available documentation to
  support their reported results. USAID/Egypt’s oversight of reported results was not
  sufficient to identify these internal control weaknesses. As a result, USAID/Egypt
  did not have sufficient assurance that information grantees reported was reliable.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that internal controls and all transactions and other significant events
need to be clearly documented and that such documentation should be readily available
for examination.

Each grantee had a separate process for collecting, recording, summarizing, and
reporting data, but those processes did not ensure the reliability of the reported data.

ACDI/VOCA – ACDI/VOCA employed the following process to collect, record,
summarize, and report results to USAID/Egypt:

1. A monitoring and evaluation team from ACDI/VOCA headquarters in Cairo designed
   a two-page survey to give farmers to determine the impact of the project’s activities.
2. The team determined sample size, locations to visit, and target groups to interview.
3. The team visited the sample of 179 beneficiary farmers in Upper Egypt to survey
   them on several points, such as how much milk the farmers’ animals produced and
   for the price they sold the milk.
4. The team filled out the two-page survey forms based on the farmers’ responses.
5. The team tabulated and summarized the survey responses in a spreadsheet
   grouped by governorate and village.
6. The team then entered the baseline data into the spreadsheet as a basis for
   comparison.
7. The team designed formulas within the spreadsheet using the farmers’ responses
   and other information, such as baseline data, to calculate the results.



                                                                                        8
8. The team surveyed a sample of three indirect farmers on the impact of project
    activities on their production.
9. ACDI/VOCA wrote the “First Year Impact Report – September 2005” using
    summarized information from the spreadsheet.
10. ACDI/VOCA submitted the “First Year Impact Report” to USAID/Egypt.

ACDI/VOCA’s process for collecting, recording, summarizing, and reporting data lacked
reliability for several reasons. For instance, ACDI/VOCA based its reported results on
surveys performed of 179 farmers in Upper Egypt, but Mission officials stated that the
farmers were reluctant to share farming information. Moreover, according to Mission
officials, the farmers may not have understood many of the survey questions. Therefore,
it was difficult to determine the reliability of the results collected. In addition,
ACDI/VOCA summarized the information from the surveys and used the results in many
complex formulas, which were subject to error. (See Appendices III and IV for details.)

Also, ACDI/VOCA was unable to provide support for reported results due to weaknesses
in control processes that affected the collection, recording, summarizing, and reporting
of results to USAID/Egypt. ACDI/VOCA surveyed 179 of 1,973 beneficiary farmers to
calculate their results. Based on our review of half of the farmers in one governorate of
Egypt, we could not verify 24 of 24 sampled surveys. For instance, many of the
amounts reported by the farmers on the survey (such as what price they sold milk for or
how much milk they produced) were significantly different from the amounts they told us.
In addition, ACDI/VOCA was unable to provide the formulas they used to tabulate and
summarize the results as well as support the baseline data they used in the
spreadsheet. As a result, we were unable to validate the results ACDI/VOCA reported to
USAID/Egypt.

CARE – CARE employed the following process to collect, record, summarize, and report
results to USAID/Egypt:

1. Each CARE field office’s marketing specialist either visited or called the farmers’
   associations approximately every two weeks.
2. Marketing specialists filled out the data collection forms based on the farmers’
   associations’ information.
3. A data input specialist in each field office inputed the information from the data
   collection forms into the computer database.
4. The regional office area manager in each field office reviewed the database
   information to ensure that there were no errors and that the information made sense.
5. A data input specialist then submitted the database information to the headquarters
   office in Cairo.
6. The Headquarters office combined each field office’s information.
7. The Headquarters office prepared quarterly reports based on the summarized
   information in the database.
8. CARE’s headquarters office sent USAID/Egypt quarterly reports based on this
   summarized database information.

CARE was unable to provide documentation to support the results that it reported to
USAID/Egypt for both its 18-month results and its 2-year results. The reason was that
the Chief of Party, prompted by the audit, had the CARE team review all data and
reports for validity. The team found some issues with the data and was in the process of
updating it. However, instead of using a copy of the original file, CARE had overridden


                                                                                       9
the original file with new data and could not, therefore, provide the original supporting
documentation. Furthermore, one of CARE’s field offices in Upper Egypt was unable to
provide supporting documentation for the results it had submitted to the CARE
headquarters office. The field office relied on verbal information from the farmers’
associations and therefore did not have supporting documentation. Because the
farmers’ associations did not maintain written documentation for the crops they sold, we
were unable to validate the results CARE reported to USAID/Egypt.

USAID/Egypt’s oversight of reported results was not sufficient to identify these internal
control weaknesses. USAID’s Automated Directives System 203.3.5.1 states that
performance data:

       should reflect stable and consistent data collection processes and
       analysis methods over time. The key issue is whether analysts and
       managers would come to the same conclusions if the data collection and
       analysis process were repeated. Operating Units should be confident
       that progress toward performance targets reflects real changes rather
       than variations in data collection methods.

A lack of sufficient internal controls within each grantee caused them to be deficient in
supplying documentation to support their results. As a consequence, USAID/Egypt
lacks sufficient assurance over the reliability of information grantees have reported to the
Mission.

To address this weakness, we make the following recommendation.

   Recommendation No. 4: We recommend that the USAID/Egypt Director require
   appropriate Mission staff to test the support for results reported by grantees
   under the Agricultural Exports and Rural Incomes Project and to require the
   grantees to take corrective action where needed.


USAID/Egypt Needed to Correct
Its Performance Monitoring Plan

  Summary: Contrary to USAID’s Automated Directives System 203.3.5.1, the
  information that USAID/Egypt reported in its Performance Monitoring Plan relating
  to the Agricultural Exports and Rural Incomes Project included inaccurate target
  and actual amounts. The Mission’s Strategic Objective Team did not analyze the
  information provided by the grantees before including it in the report. This
  inaccurate reporting can cause decision makers to make improper conclusions and
  programmatic decisions.

USAID’s Automated Directives System 203.3.5.1 states, “To be useful in managing for
results and credible for reporting, Operating Units should ensure that the performance
data in the Performance Monitoring Plan for each Strategic Objective meet five data
quality standards”—validity, integrity, precision, reliability, and timeliness.




                                                                                         10
The USAID/Egypt Performance Monitoring Plan reported targets and results for both
jobs and income in two categories, horticulture and livestock/dairy. The Performance
Monitoring Plan included target and actual amounts that were inaccurate. For instance:

•     Target amounts for “Horticulture” jobs for 2004 and 2005 were 1,300 and 3,900,
      respectively. The target amounts should have been 6,000 and 6,667, respectively.
•     The target amount presented in the Performance Monitoring Plan for “Horticulture”
      income for 2006 was 6,412 Egyptian Pounds 2 . The amount should have been
      12,824 Egyptian Pounds.
•     The “Horticulture” income indicator was missing the 2007 target of 14,427 Egyptian
      Pounds.
•     The Performance Monitoring Plan stated that the results indicator represents actual,
      direct beneficiaries, but the reported amounts included indirect beneficiaries. In the
      case of ACDI/VOCA, the difference was significant. Amounts attributed to indirect
      farmers represented approximately 84 percent of the reported results.

USAID/Egypt’s Strategic Objective Team received its information from each of the
grantees and reported it in the Performance Monitoring Plan. However, the Team did
not analyze the data to ensure that it was accurate before including it in the Performance
Monitoring Plan.

As a result, the Performance Monitoring Plan showed that the grantees were exceeding
their targets when in fact the grantees were falling short of the actual targets. The
reporting of inaccurate results and targets can cause decision makers to make improper
conclusions and programmatic decisions.

      Recommendation No. 5: We recommend that the USAID/Egypt Director correct
      the actual and target amounts in the Performance Monitoring Plan related to the
      Agricultural Exports and Rural Incomes Project.




2
    As of June 2006, $1 was equal to approximately 5.75 Egyptian Pounds.


                                                                                         11
Has USAID/Egypt’s investment in the Agricultural Exports and
Rural Incomes Project increased the rural household incomes of
project participants as planned?
For the activities audited, we could not determine if USAID/Egypt’s investment in the
Agricultural Exports and Rural Incomes Project has increased rural household incomes
for project participants as planned.

As discussed below, the two grantees audited lacked supporting documentation to verify
the reported results.

Grantees Needed to Better
Support Reported Results

  Summary: According to the grant agreements, USAID/Egypt expected ACDI/VOCA
  to increase income of the project participants by the equivalent of $3,501,090 and
  CARE to increase income of project participants by 200 percent over the first 2 years
  of the project. However, the reported results were unreliable. Because each grantee
  lacked sufficient internal controls, the documentation supporting their results was
  deficient. As a result, we were unable to validate the results reported to
  USAID/Egypt.

ACDI/VOCA – The grant agreement contained annual targets for the increase in income
that grants activities would generate. ACDI/VOCA stated it would increase annual
income by the equivalent of $1,100,500 in the first year and $2,400,590 in the second
year for a cumulative, 2-year total of $3,501,090.

ACDI/VOCA did not report on the first-year target. However, the Chief of Party stated
that ACDI/VOCA did not meet it. ACDI/VOCA produced a report for the first 2 years of
the project, which stated that ACDI/VOCA increased income by $4,023,333 or 115
percent of their 2-year target. Of this amount, more than 50 percent represents results
attributed to indirect beneficiaries, which has caused confusion among USAID officials
about what they should be expecting in terms of results. Nevertheless, even this
number is unreliable because of the many issues of accuracy and support for the
methodology as seen in Appendix IV.

CARE –The grant agreement contained annual targets for the increase in income of 100
percent in the first year and 200 percent in the second year.

According to CARE’s performance reports, CARE increased income in the first 2 years
by 164 percent or 82 percent of their 2-year target. However, the baseline CARE used
in calculating the increase in income was imprecise and too low, causing the results to
be higher than if CARE had used a higher but more precise number. CARE used an
amount found in an independent study that it had commissioned. However, the baseline
amount did not take into account the farmers that already grew high-value horticulture; if
it had, the baseline would have been higher. In addition, as discussed previously, CARE
was unable to provide documentation supporting its increased income figures.




                                                                                          12
Since each grantee lacked sufficient internal controls, the documentation they supplied
to support their results was deficient. Maintaining the documentation that is the basis of
their results is important because such documentation supports the credibility of the
information reported to USAID/Egypt. Because of this deficiency, we were unable to
validate the reported results provided to USAID/Egypt.

We are not making a recommendation on this finding because recommendation number
four addresses the issues dealing with unsupported reported results.




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
In responding to the report, USAID/Egypt emphasized that the Agricultural Exports and
Rural Incomes Project was not designed to create jobs but, rather, to create the
conditions and means for increasing smallholder farming productivity, which in turn
would support rising incomes and higher rates of employment. In consequence, there
was no discrete “jobs section” of the component activities reviewed by the audit that
specifically addressed job creation. While job targets were cited within CARE and
ACDI/VOCA’s proposals, the Mission said that they were included in extensive lists of
“tentative targets” and expected or “illustrative” project results, not as primary indicators.

USAID/Egypt went on to say that employment generation was never envisaged within
the project design nor seen by USAID managers or implementing partners as a practical
or early denominator of project progress quarter-by-quarter. The Mission said that the
project managers believed the targets described in their organizations’ original grant
proposals were ambitious, but took the view that these served as useful “stretch” goals
for their teams to attempt to reach over the long run. The Mission said that a significant
distinction should be made between grantee progress reports midway through the life of
the project and the anticipated results of the finally completed project.

With respect to the audit conclusion that data used in grantee reporting were
unsupported, USAID/Egypt believed that there was miscommunication between the
auditors and the grantees, or an absence of documentation. The Mission emphasized
that the grantees believed that, in the rural environment where activities were carried
out, illiteracy remained a significant constraint on record keeping. Where written records
of transactions were kept, they frequently were not readily offered for outside inspection,
and the details of family income were unlikely to be recalled with consistent certitude.

With respect to Recommendation No. 1, USAID/Egypt agreed that the jobs indicators
were not appropriate for measuring project progress and planned to drop them from the
project. The Mission said that documentation to effect these changes in the CARE and
ACDI/VOCA grants had been prepared for Procurement Office action. Therefore, the
Mission believed that a management decision had been made for Recommendation
No. 1. Final action would be considered implemented upon issuance of fully executed
grant modifications reflecting the requested changes.

With respect to Recommendation No. 2, USAID.Egypt agreed with the recommendation,
and directed the program implementers to revisit their field reporting requirements. The
Mission reported that CARE and ACDI/VOCA were revisiting their field reporting
requirements and would institute improved and standardized data collection procedures.
The Mission said that both grantees had redesigned their progress reports to make it
easier to see the match up between results to date and targets for the reporting period.
The Mission had received revised reports from CARE and ACDI/VOCA. Accordingly,
the Mission believed that a management decision had been made. Final action would
be considered implemented upon evidence presented that these reports are regularly
submitted and accepted by USAID.


                                                                                           14
With respect to Recommendation No. 3, USAID/Egypt said that the technical office
responsible for management of the project has established quarterly meetings that
include the Program Office to specifically review and analyze each quarterly report to
ensure that the report addresses the expected results in the agreement, including
reasons for meeting or not meeting expected results. The findings of these reviews
would be shared with the implementers. In addition, USAID/Egypt has hired a personal
services contractor to provide additional staffing in the Agribusiness Office that will
provide additional staff oversight. Accordingly, the Mission believed that a management
decision had been made. Final action would be considered implemented upon evidence
presented that quarterly meetings are taking place as scheduled and that corrective
actions, as identified, are implemented in a timely fashion.

With respect to Recommendation No. 4, USAID/Egypt said that an increased number of
monitoring visits to project field sites would be planned, particularly following
employment of the additional technical staff advisor above. The Mission noted a 2004
Mission Order that required each team to "document site and field visits related to data
review and verification". The Mission said that its staff would continue frequent
consultations with grantees to review and advise on project issues. Accordingly, the
Mission believed that a management decision had been made by following the existing
Mission Order referred to above. Final action would be considered implemented upon
submission of documentation for field visits related to data review and verification.

With respect to Recommendation No. 5, USAID/Egypt agreed with the recommendation
and said that the Performance Monitoring Plan would be revised before submission of
the next Annual Report to only report data relating to direct project beneficiaries.
Therefore, the Mission believed that a management decision had been made. Final
action would be considered implemented upon submission of the corrected
Performance Monitoring Plan.

We agree that the project contained designed flaws, but (1) various documentation
established jobs as an expected result, and (2) USAID reported on progress meeting
that result. For example, the Project Grant Agreement between the Arab Republic of
Egypt and United States of America said: “In order to assist in achieving the Strategic
Objective, the Parties agree to work together to achieve the following result: increase in
on-farm and agribusiness jobs and rural incomes.” Also, USAID/Egypt’s Performance
Monitoring Plan reported targets and results for jobs.

With respect to the Mission’s concern about whether the finding of unsupported data
may have been the result of miscommunication between the auditors and the grantees,
or an absence of documentation, the audit included interviews with the grantees
themselves as well as the review of documentation maintained by these grantees, and
were not solely based on interviews with illiterate beneficiaries. While we understand
the difficulties of record keeping in the development world, grantees are expected to
keep reasonably reliable documentation of key transactions and events consistent with
the Standards for Internal Control in the Federal Government as well as the provision of
the grants.

We concur that a management decision has been made on all five recommendations.




                                                                                       15
                                                                          APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted government auditing standards. We performed fieldwork for this audit in Egypt
from October 23, 2005, to May 4, 2006, at USAID/Egypt, CARE Egypt, ACDI/VOCA,
various grantee regional offices (including Beni Suef and Fayoum), governmental offices
(including the Ministry of Agriculture and Land Reclamation), and selected farmers’
associations’ villages throughout Beni Suef, Giza, and Fayoum.

As part of its fiscal year 2006 audit plan, the Regional Inspector General/Cairo
performed this audit to answer the following questions: (1) Has USAID/Egypt’s
investment in the Agricultural Exports and Rural Incomes Project increased the number
of jobs for project participants as planned? (2) Has USAID/Egypt’s investment in the
Agricultural Exports and Rural Incomes Project increased the rural household incomes
of project participants as planned?

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Egypt management controls related to the Agricultural Exports and Rural
Incomes Project. The significant USAID/Egypt controls identified included:

•   receiving and analyzing grantee performance reports to track progress, and to
    ensure that the grantee is achieving expected results and complying with grant
    agreement terms,
•   conducting site visits to verify that the expected activities and outputs were
    performed,
•   maintaining contact with the grantees for day-to-day feedback on activity
    implementation,
•   preparing a performance monitoring plan that includes performance indicators
    relating to the project, and
•   conducting a mid-term evaluation of the project, which provides a systematic way to
    gain insights and reach judgments about the effectiveness of the project.

Of the project’s five activities, we focused our audit on (1) Smallholder Dairy and
Livestock, implemented by ACDI/VOCA; and (2) Smallholder Horticulture,
implemented by CARE because they had a direct impact on the goals of the project.
We did not audit (a) Business Development Services, implemented by Chemonics,
CARE and ACDI/VOCA; (b) Institutional Linkages, implemented by MUCIA; and (c)
Support to Trade Associations and Other Groups, implemented by Chemonics and
MUCIA. Accordingly, we have limited our conclusions to only the components
audited.

In auditing the Smallholder Dairy and Livestock and Smallholder Horticulture
components of the project, the audit covered the related results of two grantees,
ACDI/VOCA and CARE, whose grant agreements contained annual target results
relating to increasing rural household income and jobs. USAID/Egypt signed a grant
agreement with ACDI/VOCA, dated October 1, 2003, for $7.9 million over 4 years for

                                                                                    16
                                                                              APPENDIX I


work with livestock and dairy farmers. USAID/Egypt also signed a grant agreement with
CARE, dated September 21, 2003, for $10.9 million over 4 years for work with
horticulture farmers. As of September 30, 2005, USAID/Egypt spent $2.4 million on
ACDI/VOCA’s agreement and $4.9 million on CARE’s agreement. The audit covered
the first 2 years of the project, from October 1, 2003, through September 30, 2005.

We had not previously audited the Agricultural Exports and Rural Incomes Project.
However, the Regional Inspector General/Cairo issued a previous audit report 3 relating to
the agriculture sector that resulted in one finding and one recommendation. The finding
and recommendation were not relevant to this audit.

Methodology
To answer both questions described in the scope section, we reviewed the quarterly
progress reports provided to USAID by the grantees and compared those to the grant
agreements for each grantee to determine if they met their annual targets. We then
reviewed the documentation the grantees provided to support their conclusions to
determine if their methodologies and baselines were sound. In addition, we reviewed
USAID/Egypt’s Performance Monitoring Plan, and USAID/Egypt’s 2006 Annual Report.
We interviewed the Cognizant Technical Officer for one of the grantees, the Agricultural
Exports and Rural Incomes project manager, the Chief of Party for each grantee, the
Deputy Chief of Party for one grantee, and the monitoring and evaluation teams at each
grantee.

We examined project documentation, including quarterly reports and survey forms for
collecting data from the farmers. We reviewed prior USAID project final evaluation reports
that ACDI/VOCA used to support its methodologies for determining its results. Additionally,
we reviewed the spreadsheet that summarized data collected from individual farmers.
ACDI/VOCA surveyed 179 farmers across three governorates—Fayoum, Minya, and
Sohag—to calculate its results. ACDI/VOCA asked the farmers questions such as how
many animals do they own, how much milk do their animals produce daily, how much do
they sell milk for, and how much butter or cheese do they sell and for what price. To test
the internal controls related to ACDI/VOCA’s data collection methods, we selected one
governorate, Fayoum, due to its proximity to Cairo, Egypt, and tested the data for 24 of 48
farmers surveyed by ACDI/VOCA. According to ACDI/VOCA, it performed the survey
using the same interviewers, the same questionnaire, and the same methodology
throughout Upper Egypt. Therefore, we were able to test one governorate to gain an
understanding of the reliability of the system of internal controls that ACDI/VOCA used for
collecting data from all of the governorates.

Regarding CARE, we conducted interviews with Mission officials, CARE officials, CARE
employees, farmers’ association directors, and beneficiary farmers. We examined project
documentation, including third-party baseline reports, quarterly reports, and data input
sheets for collecting data from the farmers’ associations. We reviewed prior USAID project
final evaluation reports that CARE used to support its methodologies for determining its
baselines and results. Additionally, we reviewed the database, which summarized the data
collected. For calculating results, CARE used all contracts, written or oral, in each of the
governorates it worked in to determine how much of the various crops were sold and at
3
  Audit Report No. 6-263-02-004-P, “Audit of USAID-Financed Technical Assistance for
Agricultural Activities in Egypt,” September 9, 2002


                                                                                         17
                                                                                 APPENDIX I


what price. To test the internal controls related to CARE’s data collection methods, we
selected one governorate, Beni Suef, and tested half of the written and half of the oral
contracts. According to CARE, it gathered the results using the same methodology and the
same data input forms throughout Upper Egypt. Therefore, we were able to test one
governorate to gain an understanding of the reliability of the system of internal controls that
CARE used for collecting data from all of the governorates.

We established a series of materiality thresholds for testing the validity of the
ACDI/VOCA’ surveys and the CARE contracts. If an individual data point on the survey
or contract varied by more than 20 percent and greater than one unit, we concluded the
data point was not verifiable. If more than 20 percent of the data points were invalid, we
concluded the entire survey or contract was not verifiable. If more than 25 percent of the
surveys or contracts tested were invalid, we concluded the entire population was not
verifiable.




                                                                                            18
                                                                         APPENDIX II



MANAGEMENT COMMENTS
                                                                   January 21, 2007

MEMORANDUM

TO:          Regional Inspector General/Cairo, David H. Pritchard

FROM:        USAID/Egypt Director, Kenneth C. Ellis /s/

SUBJECT: Draft Audit of USAID/Egypt’s Agricultural Exports and Rural
         Incomes Project (Report No. 6-263-07-00x-P)




The Agricultural Exports and Rural Incomes (AERI) project is a large multi-
component project aimed at increasing smallholder productivity and
competitiveness. It represents a joint commitment by USAID/Cairo, its U.S.
implementing partners, and counterpart Egyptian organizations within the public
and private sectors to strengthen the environment for trade and investment in
Egypt.

AERI has five project components designed to provide technical assistance,
training and commodities through: (1) grants to support infrastructure and
equipment needs of small farmers; (2) support to Egyptian agricultural trade
associations; (3) support to smallholders; (4) support for international linkages
between Egyptian and American scientists; and (5) technical assistance for the
design of a legacy program to ensure the sustainability of achievements attained
under the AERI project. This audit provides a detailed review of reporting
methodologies for selected activities within the third project component, and
largely limits its review to the achievement of employment increases sought by the
two grantee organizations undertaking subsets of activities for support to
smallholders.

A key issue in responding to the audit’s findings, however, is that AERI was not
designed to create jobs, but rather to create the conditions and means for increasing
smallholder farming productivity, which in turn would support rising incomes and
higher rates of employment. In consequence, there is no discrete “jobs section” of

                                                                               19
                                                                          APPENDIX II


the component activities reviewed in the audit report that specifically addresses job
creation. While job targets were cited within CARE and ACDI/VOCA’s
proposals, they were included in extensive lists of “tentative targets” and expected
or “illustrative” project results, not as primary indicators.

In practical terms, employment generation was never envisaged within the AERI
project design nor seen by USAID managers or implementing partners as a
practical or early denominator of project progress quarter-by-quarter. The
difficulty of using job data as a quarterly indicator of the success of technical
assistance in agriculture is particularly evident in the case of horticultural
production given its seasonal nature. CARE reports of lower than expected job
numbers in the first 18-24 months of the project were not seen to signify failure of
their project efforts. Similarly, ACDI/VOCA reported early on that they believed
their initial targets for job creation on smallholder dairy farms were unrealistically
high, but neither they nor USAID considered reduced projections for direct job
creation in the livestock component a determinant of the activity’s success. In both
cases, the project managers believed the targets described in their organizations’
original grant proposals were ambitious, but took the view that these served as
useful “stretch” goals for their teams to attempt to reach over the long run. In
summary, it can be argued that a significant distinction should be made between
grantee progress reports midway through the life of the project and the anticipated
results of the finally completed project.

Another area of difficulty in responding to the audit report is the assertion that the
data used in grantee reporting are “unsupported”. The Mission believes that this
finding is based either on miscommunication between the auditors and the
grantees, or an absence of documentation. In the latter case, the grantees have
explained that in the rural environment where their activities are being carried out
illiteracy remains a significant constraint on record keeping. Where written
records of transactions are kept, they frequently are not readily offered for outside
inspection, and the details of family income are unlikely to be recalled with
consistent certitude. Faulting grantee reporting because “data lacked reliability”
would appear to too lightly dismiss the environmental and cultural realities that
attend such a development project. More problematically, the behavior of auditors
in the field may appear threatening to villagers who are being interviewed and lack
an understanding of the role of audit staff. Under such circumstances it is unlikely
that the auditors will be provided with the same access to information provided
earlier to project staff known by these villagers. It would seem reasonable to
conclude that the auditors have highlighted the real difficulties of seeking
developed world accounting exactitude for income and employment generation

                                                                                    20
                                                                         APPENDIX II


data in rural communities which frequently do not document specifics, and
traditionally only reluctantly share such information when it is available.

The Mission is taking a number of actions in response to the audit
recommendations:

Recommendation No. 1: We recommend that the USAID/Egypt Director
redesign the jobs section of the Agricultural Exports and Rural Incomes
Project to establish appropriate indicators and targets for measuring project
progress.

Mission Response: As reported in the audit's text, the initial design of AERI did
not include the increase in jobs as an indicator. Measurement of jobs was elevated
to a primary indicator as the design went through the proposal preparation and
award phases. Since measuring a project's impact on job creation involves the use
of extensive surveys and/or complicated extrapolations using proxy indicators, the
opportunity for disagreements on which proxy indicators and statistical
methodologies should be used increases. The cost of such surveys makes them
impractical for such a concentrated project, especially when the methodology to
obtain the results may be debated. Moreover, job creation often occurs after the
end of the project when the full effects of the intervention are realized. Given the
difficulties in measuring a project's impact upon jobs, and that only ten months
remain in the life of the project the Mission will drop the jobs indicator from the
project. MAARDs to effect these changes in the CARE and ACDI/VOCA grants
have been prepared for Procurement Office action. Therefore, the Mission
believes that a management decision has been made for Recommendation No. 1.
Final action will be considered implemented upon issuance of fully executed grant
modifications reflecting the requested changes.

Recommendation No. 2: We recommend that the USAID/Egypt Director
enforce the requirement that grantees under the Agricultural Exports and
Rural Incomes Project submit progress reports that address each of their
expected results in their grant agreements, including reasons for meeting or
not meeting the expected results.

Mission Response: The Mission agrees to the report recommendation and has
directed the program implementers CARE and ACDI/VOCA to revisit their field
reporting requirements. CARE and ACDI/VOCA are currently revisiting their
field reporting requirements, and will institute improved and standardized data
collection procedures. Both have redesigned their progress reports to make it

                                                                                  21
                                                                         APPENDIX II


easier to see the match up between results to date and targets for the reporting
period. As the project approaches its PACD in September 2007, these reports will
provide even more critical management information to ensure that shortfalls in
project achievements can be addressed in a timely manner.

The Mission has received revised reports from CARE and ACDI/VOCA (copies
attached) and performed an analysis of the reports’ contents. The Mission believes
that a management decision has been made. Final action will be considered
implemented upon evidence presented that these reports are regularly submitted
and accepted by USAID.

Recommendation No. 3: We recommend that the USAID/Egypt Director
require the appropriate Mission personnel to analyze the quarterly reports,
including comparing the reported results to planned results specified in
documentation such as the grant agreements.

Mission Response: The technical office responsible for management of the AERI
project has established quarterly meetings that include the Program Office to
specifically review and analyze each quarterly report to ensure that the report
addresses the expected results in the agreement, including reasons for meeting or
not meeting expected results. The findings of these reviews will be shared with the
implementers. In addition, USAID/Egypt has hired a USPSC to provide additional
staffing in the Agribusiness Office that will provide additional staff oversight. The
organization of this analysis is a specific objective listed in the duties and
responsibilities of the newly hired USPSC.

In view of the above, the Mission believes that management decision has been
made. Final action will be considered implemented upon evidence presented that
quarterly meetings are taking place as scheduled and that corrective action(s), as
identified, are implemented in a timely fashion.

Recommendation No. 4: We recommend that the USAID/Egypt Director
require appropriate Mission staff to test the support for results reported by
grantees and to require grantees to take corrective action where needed.

Mission Response: Mission Order 203-1 dated February 8, 2004 requires each
team to "document site and field visits related to data review and verification".
Mission staff will continue frequent consultations with grantees to review and
advise on project issues. An increased number of monitoring visits to project field
sites will be planned, particularly following employment of the additional technical

                                                                                  22
                                                                           APPENDIX II


staff advisor noted above. In view of the above, the Mission believes that a
management decision has been made by following the existing Mission Order
referred to above. Final action will be considered implemented upon submission
of documentation for field visits related to data review and verification.

Recommendation No. 5: We recommend that the USAID/Egypt Director
correct the actual and target amounts in the Performance Monitoring Plan
related to the Agricultural Exports and Rural Incomes Project.

Mission Response: The Mission agrees to the report recommendation No. 5. The
Performance Monitoring Plan will be revised before submission of the next Annual
Report to only report data relating to direct AERI beneficiaries. Therefore, we
believe that a management decision has been made. Final action will be
considered implemented upon submission of the corrected Performance
Monitoring Plan.

The Mission appreciates the considerable time and effort devoted by staff of the
Regional Inspector General to the preparation of this audit report. We believe the
benefits of AERI for the people of Egypt will fully justify the investments made in
this project by the Government of Egypt and that of the United States. A mid-term
evaluation of AERI by an external group of agricultural specialists set the stage for
such an expectation in concluding that: “It is very likely that no other Project in the
current USAID Egypt portfolio has after two years of implementation doubled the
income of its primary beneficiaries in a way that will be largely sustainable with
little additional post PACD technical input to the current target population….The
Project is clearly an outstanding use of US taxpayer’s money, creating as it does,
lasting socio-economic (and hence, political) stability in a much neglected part of
the country.”




                                                                                     23
                                                                                          APPENDIX III


                          TECHNICAL APPENDIX FOR JOBS CALCULATIONS

    ACDI/VOCA JOBS METHODOLOGY AND CALCULATION 4

        FORMULA                       EXPLANATION                            FINDINGS
    Overall                •   ACDI/VOCA determined that the       Unsupported – ACDI/VOCA
    Methodology:               increase in milking animals         did not provide
    • 14,995 new               owned by both direct and            documentation to support
       milking animals         indirect beneficiary farmers        this assumption.
       divided by 10           divided by 10, multiplied by 3,     Inaccurate – USAID
       multiplied by 3         equals the number of new            officials and the Acting
       equals 4,499            on-farm jobs they created.          Chief of Party for
       new on-farm         •   This does not apply to the 122      ACDI/VOCA stated that
       jobs                    reported jobs created at dairy      ACDI/VOCA’s activities
                               processing clients.                 would not increase jobs.
    Baseline:          •       ACDI/VOCA calculated the            Unsupported – The project
    Step 1 - Determine         baseline number of milking          started in the last quarter of
    Number of Animals:         animals by surveying 179 of         2003; however, the
    • 4,613 milking            their 1,973 direct beneficiary      baseline numbers came
       animals owned           farmers to determine how many       from the same survey used
       by direct               animals they owned and              to compute the results,
       beneficiary             applying the ratio of surveyed      which ACDI/VOCA
       farmers plus            farmers to the rest of the          performed in June/July
       23,565 milking          farmers to determine the total      2005. The baseline
       animals owned           number of milking animals           number is not a baseline
       by indirect             owned by direct beneficiary         from the beginning of the
       farmers equals          farmers - 4,613 milking animals     project.
       28,178 total            owned by direct farmers.            Unsupported – ACDI/VOCA
       milking animals •       ACDI/VOCA used an average           tested 3 indirect farmers out
                               diffusion rate of 5.11, which       of 10,082 indirect farmers
    Step 2 - Determine         came from the survey, to            to ensure that they actually
    Number of Jobs:            calculate the number of milking     adopted the new
    • 28,178 divided           animals owned by indirect           technology from direct
       by 10 multiplied        farmers – 4,613 animals             farmers. This is less than
       by 3 equals             multiplied by 5.11 equals 23,565    one-tenth of one percent.
       8,454 jobs              animals. The diffusion rate is      Such a small sample does
                               the number of other farmers that    not have statistical validity.
                               each direct, beneficiary farmer     Inaccurate – During the
                               (those that participated directly   audit, the auditors raised
                               in ACDI/VOCA’s activities) told     questions in the formula
                               about the techniques learned.       used to compute the
                           •   ACDI/VOCA applied their overall     diffusion rate from the
                               methodology to determine the        surveys. Subsequently,
                               baseline number of workers          ACDI/VOCA decreased the
                               needed for the baseline number      diffusion rate, which
                               of animals.                         subsequently lowers their
                                                                   computed results.

4
  Our review of the methodologies and calculations focused on farmers because 97 percent of
ACDI/VOCA’s reported results for jobs can be attributed to the farmers’ activities. ACDI/VOCA attributed
the remaining three percent to dairy processors.


                                                                                                    24
                                                                                     APPENDIX III


    FORMULA                       EXPLANATION                            FINDINGS
                                                               Inaccurate – According to
                                                               several project and USAID
                                                               documents including the
                                                               Activity Approval
                                                               Document, the Request for
                                                               Applications, and the
                                                               Performance Monitoring
                                                               Plan, the jobs impact
                                                               should only include direct
                                                               farmers and not include
                                                               indirect farmers.
Computed Results:       •   ACDI/VOCA assumed that 5           Unsupported - The average
Determine Number            percent of the baseline milking    increase in income per
of Animals:                 animals would be lost to           farmer using ACDI/VOCA’s
• Subtract 1,409            mortality or culling (selling or   numbers equals 1,958
    animals for             killing) – 28,178 animals          Egyptian Pounds. Per
    mortality/culling       multiplied by 5 percent equals     ACDI/VOCA, farmers do
• Add 1,417 new             1,409 animals.                     not pool their money
    animals from        •   ACDI/VOCA assumed that from        together to purchase
    increase in             the increase in income reported,   animals. Therefore, in
    income                  the farmers would purchase         order to purchase a new
• Add 14,089                additional animals. They           milking animal as
    new animals             assumed that 40 percent of the     suggested in their formula,
    from heifers            income increase would be           the farmer would have to
    maturing                reinvested into the livestock      wait for over 2 years before
• Add 3,170 new             business with 75 percent of the    being able to afford one.
    animals from            re-investment going towards the    (23,605,201 Egyptian
    the sale of             purchase of additional milking     Pounds divided by 12,055
    calves                  animals. The total reported        farmers – direct and indirect
• Subtract 2,272            increase in income is              - equals 1,958 Egyptian
    animals for             23,605,201 Egyptian Pounds         Pounds per farmer.)
    mortality/culling       multiplied by 40 percent, then     ACDI/VOCA has not
• For an ending             multiplied again by 75 percent,    provided documentation to
    total of 43,173         which equals 7,081,656             show that farmers actually
    animals                 Egyptian Pounds divided by         acquire new animals
                            5,000 Egyptian Pounds              because of the increase in
                            (assumed average price of a        income.
                            milking animal), which equals      Unsupported – ACDI/VOCA
                            1,417 animals.                     was unable to provide
                        •   ACDI/VOCA assumed that each        support that 40 percent of
                            baseline animal would give birth   the increased income would
                            to one animal each year with 50    be reinvested into the
                            percent being female (heifers)     livestock business and that
                            and 50 percent being male          75 percent of a farmer’s re-
                            (calves). The female animals       investment was used for
                            would mature into milking          purchasing new animals.
                            animals. These additional          They were also unable to
                            milking animals are included in    support the average prices
                            the change in total milking        of calves (1,500 Egyptian
                                                               Pounds) and milking


                                                                                               25
                                                                                APPENDIX III


   FORMULA                     EXPLANATION                           FINDINGS
                       animals - 28,178 baseline           animals (5,000 Egyptian
                       animals multiplied by 50 percent    Pounds).
                       equals 14,089 new milking           Inaccurate – The female
                       animals.                            animals (heifers) that were
                   •   ACDI/VOCA assumed that the          born to the baseline
                       male animals (calves) would be      animals (14,089) had
                       sold and the money received         nothing to do with
                       from the sale would be used to      ACDI/VOCA’s activities.
                       purchase additional milking         They were born prior to the
                       animals. ACDI/VOCA assumed          project’s commencement.
                       that calves would be sold for       The heifers that were born
                       1,500 Egyptian Pounds each,         and matured should not be
                       and 75 percent of the proceeds      added to the baseline.
                       would be used to purchase           ACDI/VOCA was unable to
                       milking animals – 14,089            support the attribution of
                       animals multiplied by 1,500         their activities to the
                       Egyptian Pounds multiplied by       animals that were born.
                       75 percent divided by 5,000         Inaccurate – The male
                       Egyptian Pounds equals 3,170        animals (calves) that were
                       new milking animals.                born to the baseline
                   •   ACDI/VOCA assumed that after        animals and subsequently
                       all of these changes, the           sold with the proceeds used
                       number of animals would             to purchase additional
                       decrease by an additional 5         milking animals (3,170) had
                       percent due to mortality and        nothing to do with
                       culling – 45,445 animals            ACDI/VOCA’s activities.
                       multiplied by 5 percent equals      They were born prior to the
                       2,272 animals.                      project’s commencement.
                                                           This amount should not be
                                                           added to the baseline in the
                                                           first year.
Computed Results: •    ACDI/VOCA used the total of         Inaccurate – ACDI/VOCA
Step 1 - Determine     the baseline plus the changes to    transposed a number when
Number of Animals:     the baseline to determine the       calculating the number of
• 28,178 animals       ending number of milking            new jobs created. The
   minus 1,409         animals.                            number of new jobs created
   plus 1,417 plus •   ACDI/VOCA used their overall        should be 4,498 instead of
   14,089 plus         methodology of dividing the total   4,472. (12,952 minus
   3,170 minus         number of milking animals by 10     8,454 equal 4,498.)
   2,272 equals        and multiplying by 3 to get the
   43,173              number of jobs needed.
Step 2 - Determine •   ACDI/VOCA took the ending
Number of Jobs:        number of jobs needed (it was
• 43,173 animals       computed as 12,952; however,
   divided by 10       in their report, they transposed
   multiplied by 3     numbers and used 12,925) and
   equals 12,952       subtracted out the baseline
   jobs                number of jobs needed to get
• 12,925 jobs          the number of new jobs created



                                                                                          26
                                                                                APPENDIX III


    FORMULA                   EXPLANATION                          FINDINGS
   minus the           – 12,925 minus 8,454 equals
   baseline of         4,472.
   8,454 jobs
   equals 4,472
   new on-farm
   jobs created


CARE JOBS METHODOLOGY AND CALCULATION

     FORMULA                  EXPLANATION                             FINDINGS
2,972 feddans of   •   CARE used a multiplier of one,      Inaccurate – CARE did not
high-value             based on a previous USAID           subtract out the feddans of
horticulture           project called ALEB, to calculate   high-value horticulture that
multiplied by 1        the number of on-farm jobs they     the farmers were already
equals 2,972 new       created. The ALEB project used      cultivating. According to
on-farm jobs           the multiplier to determine how     farmers that we
                       many new jobs were created          interviewed, some were
                       based on a given input.             already cultivating high-
                   •   CARE assumed that they              value horticulture. To
                       created one new on-farm job for     support this further, an
                       every added or converted            independent survey that
                       feddan of high-value horticulture   CARE commissioned
                       that was grown by the farmers.      during the project stated
                   •   CARE collected data from each       that approximately 25
                       of the farmers’ associations bi-    percent of farmers in Upper
                       weekly to determine the number      Egypt already grow high-
                       of feddans of high-value            value horticulture.
                       horticulture that they grew.        Unsupported – The
                                                           multiplier CARE used was
                                                           applied to known inputs in
                                                           the previous project as
                                                           opposed to changing
                                                           values of existing inputs.
                                                           CARE was unable to
                                                           provide documentation to
                                                           support the use of this
                                                           multiplier.
                                                           Inaccurate - CARE did not
                                                           take into account the jobs
                                                           that existed on the land
                                                           prior to switching to high-
                                                           value crops. CARE stated
                                                           that its farmers grew 2,972
                                                           feddans of high-value
                                                           horticulture. Assuming one
                                                           new job for every feddan of
                                                           high-value horticulture,
                                                           CARE reported that they



                                                                                          27
                                              APPENDIX III


FORMULA   EXPLANATION             FINDINGS
                        created 2,972 jobs.
                        However, CARE did not
                        take into account that the
                        land previously grew a
                        different crop that required
                        labor.




                                                       28
                                                                                   APPENDIX IV


                TECHNICAL APPENDIX FOR INCOME CALCULATIONS
                                                                        5 6
ACDI/VOCA INCOME METHODOLOGY AND CALCULATION

    FORMULA                          EXPLANATION                             FINDINGS
Increase in income      •    ACDI/VOCA calculated this              Unsupported – ACDI/VOCA
of 417,131                   increase by performing the             was unable to provide
Egyptian Pounds              following calculation for each         support for the average
                             village and then adding up the         production of milk by a
This amount is               totals: (1) multiplying the            buffalo or a cow prior to the
titled “Total                average production of milk by a        project.
Increase in                  buffalo prior to the project by the    Unsupported – ACDI/VOCA
Smallholder                  average milking season for             was unable to provide the
Income From Raw              buffalos by the number of              formula to support the
Milk Sale –                  buffalos owned by direct               average milking season
[Agricultural                farmers, (2) multiplying the           number for buffalos or
Exports and Rural            average production of milk by a        cows, which reportedly
Incomes Project’s]           buffalo after the project activities   came from the survey
Clients.”                    by the average milking season          performed on 179 farmers.
                             for buffalos by the number of          Unsupported – ACDI/VOCA
                             buffalos owned by direct               was unable to support the
                             farmers, (3) subtracting the           1.65 Egyptian Pounds for
                             before number from the after           buffalo.
                             number, (4) multiplying this           Unsupported – ACDI/VOCA
                             difference by 1.65 Egyptian            was unable to support the
                             Pounds (supposed to represent          29 percent for cows or
                             the average market price for a         buffalo.
                             kilo of buffalo milk after the         Unsupported – ACDI/VOCA
                             project activities), and (5)           was unable to support the
                             multiplying this amount by 29          1.25 Egyptian Pounds for
                             percent.                               cows.
                        •    ACDI/VOCA added this amount
                             to the same calculation
                             performed for cows—instead of
                             1.65 Egyptian Pounds,
                             ACDI/VOCA used 1.25 Egyptian
                             Pounds (supposed to represent
                             the average market price for a
                             kilo of cow milk after project
                             activities).


5
  Our review of the methodologies and calculations focused on milk production and milk products
because 99 percent of ACDI/VOCA’s reported results for income can be attributed to these
activities. ACDI/VOCA attributed the remaining one percent to beef sales, group purchase of
feed, and dairy processors.
6
  On six separate occasions, we requested documentation to support the calculations and the
formulas reported by ACDI/VOCA. We did not receive the information requested. Government
Accountability Office’s standards require that all transactions and other significant events need to
be clearly documented, and that such documentation should be readily available for examination.


                                                                                            29
                                                                                APPENDIX IV


     FORMULA                       EXPLANATION                             FINDINGS
Increase in income     •   ACDI/VOCA calculated this              Unsupported – ACDI/VOCA
of 2,102,981               increase by performing the             was unable to provide
Egyptian Pounds            following calculation for each         support for the average
                           village and then adding up the         production of milk by a
This amount is             totals: (1) multiplying the            buffalo or a cow prior to the
titled “Total              average production of milk by a        project.
Increase in                buffalo prior to the project by the    Unsupported – ACDI/VOCA
Smallholder                average milking season for             was unable to provide the
Income From Raw            buffalos by the number of              formula to support the
Milk Sale – Indirect       buffalos owned by direct               average milking season
Clients.”                  farmers, (2) multiplying the           number for buffalos or
                           average production of milk by a        cows, which reportedly
                           buffalo after the project activities   came from the survey
                           by the average milking season          performed on 179 farmers.
                           for buffalos by the number of          Unsupported – ACDI/VOCA
                           buffalos owned by direct               was unable to support the
                           farmers, (3) subtracting the           1.65 Egyptian Pounds for
                           before number from the after           buffalo.
                           number, (4) multiplying this           Unsupported – ACDI/VOCA
                           difference by the diffusion rate,      was unable to support the
                           (5) multiplying this amount by 29      29 percent amount for cows
                           percent, and (6) multiplying this      or buffalo.
                           amount by 1.65 Egyptian                Unsupported – ACDI/VOCA
                           Pounds (supposed to represent          was unable to support the
                           the average market price for a         1.20 Egyptian Pounds for
                           kilo of buffalo milk after project     cows, which is different
                           activities).                           from the amount used in
                       •   ACDI/VOCA added this amount            the previous calculation.
                           to the same calculation                Inaccurate – ACDI/VOCA
                           performed for cows—instead of          incorrectly calculated the
                           1.65 Egyptian Pounds, they             diffusion rates for each
                           used 1.20 Egyptian Pounds              village and has
                           (supposed to represent the             subsequently adjusted their
                           average market price for a kilo        results downward.
                           of cow milk after project
                           activities).
Increase in income     •   ACDI/VOCA calculated this              Unsupported – ACDI/VOCA
of 2,012,790               increase by performing the             was unable to provide
Egyptian Pounds            following calculation for each         support for the average milk
                           village and then adding up the         production by a cow or
This amount is             totals: (1) multiplying the            buffalo prior to the project.
titled “Value of           average production of milk by a        Unsupported – ACDI/VOCA
Increase Milk in           buffalo prior to the project by the    was unable to provide the
Products Sale              average milking season for             formula to support the
(40%) – Clients.”          buffalos by the number of              average milking season
                           buffalos owned by direct               number for buffalos or
                           farmers, (2) multiplying the           cows, which reportedly
                           average production of milk by a        came from the survey
                           cow prior to the project by the        performed on 179 farmers.



                                                                                            30
                                                               APPENDIX IV


FORMULA               EXPLANATION                          FINDINGS
              average milking season for          Unsupported – ACDI/VOCA
              cows by the number of cows          was unable to provide
              owned by direct farmers, (3)        support for the 46 percent.
              adding these numbers together,      Unsupported – ACDI/VOCA
              (4) multiplying this number by 46   was unable to provide
              percent, (5) dividing this number   support for dividing by 4.
              by 4, and (6) multiplying this by   We were unable to
              1.75 Egyptian Pounds, (7)           determine what this number
              subtracting this amount from an     represented.
              amount titled “Value of Cheese      Unsupported – ACDI/VOCA
              After.”                             was unable to provide
          •   ACDI/VOCA added to this an          support for the 1.75
              amount calculated by                Egyptian Pounds.
              performing the following            Unsupported – ACDI/VOCA
              calculation for each village and    was unable to provide
              then adding up the totals: (1)      support for the “Value of
              multiplying the number of direct    Cheese After” amount.
              clients by 1.5205271160669, (2)     Unsupported – ACDI/VOCA
              multiplying this by 24 Egyptian     was unable to provide
              Pounds, (3) subtracting this from   support for the amount of
              an amount calculated by             1.5205271160669. We
              multiplying an amount titled        were unable to determine
              “Volume of Ghee After” by 25        what this number
              Egyptian Pounds.                    represented.
          •   ACDI/VOCA added to this an          Unsupported – ACDI/VOCA
              amount calculated by                was unable to provide
              performing the following            support for the 24 or the 25
              calculation for each village and    Egyptian Pounds.
              then adding up the totals: (1)      Unsupported – ACDI/VOCA
              multiplying the number of direct    was unable to provide
              clients by 10.7450582868728,        support for the “Value of
              (2) multiplying this amount by 15   Ghee After” amount.
              Egyptian Pounds, (3)                Unsupported – ACDI/VOCA
              subtracting this from an amount     was unable to provide
              calculated by multiplying an        support for the amount of
              amount titled “Volume of Butter     10.7450582868728. We
              After” by 16 Egyptian Pounds.       were unable to determine
          •   ACDI/VOCA multiplied the total      what this number
              of these three amounts by 40        represented.
              percent.                            Unsupported – ACDI/VOCA
                                                  was unable to provide
                                                  support for the “Value of
                                                  Butter After” amount.
                                                  Unsupported – ACDI/VOCA
                                                  was unable to provide
                                                  support for the 15 or the 16
                                                  Egyptian Pounds.
                                                  Unsupported – ACDI/VOCA
                                                  was unable to provide
                                                  support for the 40 percent.


                                                                           31
                                                                               APPENDIX IV


    FORMULA                        EXPLANATION                              FINDINGS
Increase in income      ACDI/VOCA calculated this amount         Unsupported – ACDI/VOCA
of 11,302,976           by multiplying the above amount by       was unable to provide
Egyptian Pounds         the diffusion rate for that village.     documentation that stated
                                                                 that reported results should
This amount is                                                   include indirect amounts as
titled “Increase Milk                                            computed using a diffusion
Products Value –                                                 rate.
Indirect Clients.”                                               Inaccurate – Assuming
                                                                 ACDI/VOCA could use a
                                                                 diffusion rate, they used the
                                                                 wrong rate. ACDI/VOCA
                                                                 calculated the diffusion rate
                                                                 in their spreadsheet
                                                                 incorrectly and
                                                                 subsequently adjusted
                                                                 downward.
Increase in income      •   ACDI/VOCA calculated this            Unsupported – ACDI/VOCA
of 1,599,757                increase by performing the           was   unable to support the
Egyptian Pounds             following calculations for 6 out of  reason   for performing this
                            19 villages and adding the           calculation for 6 villages
This amount is              amounts together:                    instead of all 19 villages.
titled “Increase in •       For buffalo: (1) multiplied total    Inaccurate – In calculating
Smallholder                 number of buffalo for the            the  buffalo amount,
Income Due to Raw           project’s clients in that village by ACDI/VOCA      used average
Milk Sale Price             the diffusion rate, (2) added to     milk  production   of cows
Differences –               that the total number of buffalos instead of buffalo in their
Direct/Indirect             for the Project’s clients in that    calculation.
Clients.”                   village, (3) subtracted this         Unsupported – ACDI/VOCA
                            amount from the total number of was unable to provide
                            buffalo in that village, (4)         support for the reason for
                            multiplied this by average           using one methodology to
                            milking season for buffalo, (5)      calculate an amount for
                            multiplied by the average milk       buffalos and a different
                            production for cows before the       methodology to calculate
                            project activities, (6) multiplied   the amount for cows.
                            this by either 40 percent (for 4     Unsupported – ACDI/VOCA
                            villages) or 80 percent (for 2       was   unable to support the
                            villages).                           reason for using 40 percent
                        •   For cows: (1) subtracted the         for 4 villages and 80
                            number of cows owned by the          percent for 2 villages.
                            project’s clients in that village    Unsupported – ACDI/VOCA
                            from total number of cows in         was   unable to provide
                            that village, (2) multiplied by the  documentation     that stated
                            average milk production for          that reported results should
                            cows before the project              include indirect amounts as
                            activities, (3) multiplied by the    computed using a diffusion
                            average milking season for           rate.
                            cows, and (4) multiplied by 40       Unsupported – ACDI/VOCA
                            percent.                             was   unable to provide the
                                                                 formula to support the


                                                                                           32
                                                                               APPENDIX IV


    FORMULA                      EXPLANATION                              FINDINGS
                                                                 average milking season
                                                                 number for buffalos or
                                                                 cows, which reportedly
                                                                 came from the survey
                                                                 performed on 179 farmers.
                                                                 Unsupported – ACDI/VOCA
                                                                 was unable to provide
                                                                 support for the average
                                                                 production of milk by a
                                                                 buffalo or a cow prior to the
                                                                 project.
Increase in income     We did not request the information
of 38,316 Egyptian     from ACDI/VOCA for how they
Pounds                 calculated this amount. See
                       footnote 8 for explanation.
This amount is
titled “Saving From
Group Purchase for
Feed – [Agricultural
Exports and Rural
Incomes Project’s]
Clients.”
Increase in income     ACDI/VOCA calculated this                 Unsupported – ACDI/VOCA
of 5,409,743           increase by performing the following      was unable to support the
Egyptian Pounds        calculation for each of the 19            calculation for total
                       villages and then adding up the           veterinary savings per
This amount is         totals: Multiplied the total veterinary   animal per year.
titled “Total          savings per animal per year
Reduction in           (reportedly from the surveys) by the
Veterinary Services    total number of animals in that
Costs Due to Vet       village.
Campaigns.”
Increase in income     We did not request the information
of 149,828             from ACDI/VOCA for how they
Egyptian Pounds        calculated this amount. See
                       footnote 8 for explanation.
This amount is
titled “Total
Increase in
Smallholder
Income From Beef
– [Agricultural
Exports and Rural
Incomes Project’s]
Clients.”
Increase in income     We did not request the information
of 47,450 Egyptian     from ACDI/VOCA for how they
Pounds                 calculated this amount. See
                       footnote 8 for explanation.



                                                                                           33
                                                                            APPENDIX IV


      FORMULA                  EXPLANATION                            FINDINGS
This amount is
titled “Total
Increase in
Smallholder
Income From Beef
Sale – Indirect
Clients.”
Increase in income   We did not request the information
of 53,190 Egyptian   from ACDI/VOCA for how they
Pounds               calculated this amount. See
                     footnote 8 for explanation.
This amount is
titled “Total
Increase in Dairy
Processors
Income.”
Total increase in    ACDI/VOCA added up all of the
income of            increases to get an overall total of
23,134,162           the increase in income for the first 2
Egyptian Pounds      years of the project.


CARE INCOME METHODOLOGY AND CALCULATION

    FORMULA                     EXPLANATION                             FINDINGS
CARE did not         CARE explained that they                 Unsupported – CARE was
provide the data     calculated their results by              unable to provide support
used for the         multiplying the total tons of crop       for this calculation. CARE
calculation of the   sold by the farmers by the price the     provided several different
formulas.            farmers received per ton for the         reports listing each farmer
                     crop for each contract, whether          association and their
                     written or oral, that the farmers had    contracts, including tons
                     with the exporters or local market.      sold and total price
                     In addition, the baseline income         received; however, none of
                     used in the calculation came from        the reports agreed with the
                     an independent survey CARE               amount reported to
                     commissioned.                            USAID/Egypt.
                                                              Inaccurate – The baseline
                                                              for calculating the increase
                                                              in income was imprecise
                                                              and too low, causing the
                                                              results to be higher than if
                                                              they used a higher, but
                                                              more precise number.
                                                              CARE used an amount
                                                              found in an independent
                                                              study they commissioned.
                                                              However, the baseline
                                                              amount did not take into



                                                                                        34
                                      APPENDIX IV


FORMULA   EXPLANATION             FINDINGS
                        account the farmers that
                        already grew high-value
                        horticulture, which would
                        cause the baseline to be
                        higher.




                                                    35
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
